HHS/OIG-Audit--"Medicare Hospital Patient Transfers Improperly Reported and Paid as Hospital Discharges, (A-06-93-00095)"
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Medicare Hospital Patient Transfers Improperly Reported and Paid as Hospital
Discharges," (A-06-93-00095)
February 16, 1995
Complete
Text of Report is available in PDF format (1.09 MB). Copies can also be obtained
by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This final report provides the results of work on hospital transfer recovery projects.
The projects were undertaken jointly by the Office of Inspector General, Health
Care Financing Administration (HCFA), and Medicare fiscal intermediaries. The projects
identified overpayments that occurred because transfers of patients between PPS
hospitals were erroneously reported and paid as discharges. In total, these projects
resulted in Medicare Part A trust fund recoveries totaling $219 million and annual
savings totaling $8 million. In addition, we estimate that $22 million will be
recovered from transfer transactions that warrant further resolution. We recommended
that HCFA place a high priority on recovering the remaining overpayments. The HCFA
concurred and will issue a memorandum to all Associate Regional Administrators
advising them to instruct their fiscal intermediaries to comply with the OIG's
recommendations and take immediate steps to complete the recovery project.